                              O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



A cting Ins pe ctor Ge ne ral



Us e of O fficialTim e for Union A ctivitie s at th e SocialSe curity Adm inis tration



Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our re vie w of th e us e of official

tim e for union activitie s at th e SocialSe curity Adm inis tration (SSA )

(A-13-9 7-72013). Th e obje ctive of th e re vie w w as to de te rm ine w h e th e r official

tim e for union activitie s at SSA w as b e ing us e d in com pl    iance w ith l  aw s ,

re gulations , and contractual(col    le ctive bargaining)agre e m e nts , and w h e th e r SSA
produce s re l iable inform ation  to de  te rm ine th e cos ts of officialtim e .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                   Jam e s G. H us e , Jr.

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
SSA /O IG/O A /CM A RK O W ITZ /cl
                                 h /07/09 /9 8     9 7-72013-FNL
Re port Fil
          e
                       EXECUTIVE SUM M ARY


O BJECTIVE

Th e obje ctive of th is audit w as to de te rm ine w h e th e r officialtim e for union
activitie s at th e SocialSe curity Adm inis tration (SSA )w as b e ing us e d in com pl    iance
w ith re le vant law s , re gul
                              ations , and contractual(col    le ctive bargaining)agre e m e nts ,
and w h e th e r SSA produce s re l  iable inform ation to de te rm ine th e cos ts of official
tim e .

BACKGROUND

Unions at SSA

Th e re are th re e unions at SSA --th e NationalTre as ury Em pl         oye e s Union (NTEU),
th e NationalFe de ration of Fe de ralEm pl      oye e s (NFFE), and th e A m e rican Fe de ration
of Gove rnm e nt Em pl     oye e s (AFGE). Col    l
                                                  e ctive l
                                                          y, th e y re pre s e nt approxim ate l
                                                                                               y
52,000 bargaining unit e m pl       oye e s for w h ich th e re are about 1,800 union
re pre s e ntative s ;of th os e 145 w ork ful  l-tim e on union activitie s . AFGE is by far
th e large s t union re pre s e nting about 9 6 pe rce nt of SSA ’     s bargaining unit
e m ploye e s . Provis ions re garding h ow th e th re e unions w il     lope rate at SSA are s e t
forth in various col    le ctive bargaining agre e m e nts .

O fficialTim e

SSA de fine s officialtim e as tim e during w h ich an e m pl       oye e oth e rw is e w ould be
pe rform ing A ge ncy as s igne d w ork , but th e e m pl   oye e is auth orize d by l  aw ,
re gul ation, or ne gotiate d agre e m e nt to s pe nd tim e re pre s e nting union and/or
bargaining unit e m pl    oye e s . SSA is re q uire d by Fe de rall aw to auth orize th e us e of
officialtim e by union re pre s e ntative s for ce rtain activitie s , and h as agre e d to its
us e for oth e r activitie s purs uant to its col  le ctive bargaining agre e m e nts w ith th e
unions . Com m on re pre s e ntationalactivity cons tituting auth orize d officialtim e
incl ude s re pre s e nting e m pl oye e s in com pl
                                                   aints by or agains t m anage m e nt,
bargaining ove r ch ange s in w ork ing conditions and th e appl           ication of pe rs onne l
pol icie s , and ne gotiating union contracts w ith m anage m e nt. W h e n a union
re pre s e ntative is on officialtim e , SSA is obl    igate d to pay th e e m pl oye e th e s am e
w age s as if h e or s h e w e re pe rform ing re gul   ar A ge ncy-as s igne d w ork .

Th e th re e unions and SSA h ave ne gotiate d col le ctive bargaining agre e m e nts w h ich
contain provis ions re garding l
                               im its on th e us e of officialtim e . Som e cate gorie s of


                                                 i
activitie s h ave caps or l     im its on th e am ount of h ours th at can be us e d, and s om e
cate gorie s h ave no l   im its as l  ong as th e y are cons ide re d re as onabl e , ne ce s s ary,
and in th e publ    ic inte re s t. Th e col le ctive bargaining agre e m e nts al s o provide l   im its
re lative to th e type of union pos ition occupie d, s uch as an office r, as s is tant ch ie f
s te w ard, or s te w ard. Th e s e agre e m e nts al  s o addre s s th e num be r of union
re pre s e ntative s auth orize d to us e officialtim e and h ow it s h oul    d be re corde d.

In 19 9 3, Exe cutive O rde r 12871 articul      ate d a conce pt of l   abor/m anage m e nt
re l
   ations cal  le d “Partne rs h ip”w h ich re q uire s age ncie s to invol  ve th e ir l
                                                                                        abor
organizations as ful   lpartne rs w ith m anage m e nt in ide ntifying age ncy probl         e m s and
crafting s ol utions . D uring th e pe riod of our re vie w , th e h ours s pe nt on Partne rs h ip
activitie s by union re pre s e ntative s m ay or m ay not h ave be e n cons ide re d official
tim e . Th e re as on for th is incons is te ncy s te m s from a l   ack of cl e ar guidance . In
D e ce m be r 19 9 7, SSA is s ue d guidance to cl     arify w h ich activitie s s h ould be
cons ide re d Partne rs h ip activitie s and th at s uch activitie s s h oul d not q ual  ify for
officialtim e .

Congre s s ionalH e arings and th e Ge ne ralA ccounting O ffice Re port on Union
A ctivitie s at SSA

Congre s s ionalh e arings h e l   d in June 19 9 6 e xam ine d th e us e of th e SocialSe curity
trus t funds to finance union activitie s . Th e h e arings discussed th e us e of th e trus t
funds to pay for officialtim e and its re l      ate d cos ts , th e incre as e in th e us e and cos t
of officialtim e , th e bal   ance of pow e r be tw e e n th e unions and SSA m anage m e nt,
and th e e ffe ct of officialtim e on s e rvice to th e publ     ic. In O ctobe r 19 9 6, th e
Ge ne ralA ccounting O ffice (GA O )provide d Congre s s w ith a re port on th e tim e and
cos ts as s ociate d w ith union activitie s at SSA . GA O found th at SSA ’           s officialtim e -
re porting s y s te m s did not ade q uate l  y capture th e actualam ount of officialtim e
us e d, and th at a l  im ite d ve rification of th e h ours re porte d found th at th e am ount of
officialtim e w as unde rre porte d.

SCO PE AND M ETH O D O LO GY

A fte r th e GAO re port w as is s ue d, Congre s s re q ue s te d th e O ffice of th e Ins pe ctor
Ge ne ralto provide m ore in-de pth inform ation re garding th e us e of officialtim e
re late d to union activitie s at SSA , and h ow th e A ge ncy accounts for th e tim e and
th e as s ociate d cos ts . To accom pl    is h th is , w e re vie w e d re l
                                                                            e vant Fe de rallaw s ,
re late d crite ria, te s tim ony from pre vious congre s s ionalh e arings and GA O re ports ,
and contractualagre e m e nts . W e m e t w ith l        abor-re l ations pe rs onne l  , and w e
inte rvie w e d union re pre s e ntative s and th e ir s upe rvis ors . W e al   s o e xam ine d official
tim e re cords and re ports from various com pone nts as w e l             las SSA’   s cal culation of
cos ts re l ate d to officialtim e .




                                                    ii
RESULTS O F REVIEW

W e ide ntifie d w e ak ne s s e s w ith SSA ’s m anage m e nt ove rs igh t of officialtim e .
Spe cifical  ly, SSA ’ s m anage m e nt ove rs igh t doe s not provide re as onabl   e as s urance
th at: onl   y curre ntly de s ignate d union re pre s e ntative s are auth orize d to us e official
tim e ;th e num be r of auth orize d us e rs is in com pl   iance w ith contract crite ria;
re q ue s ts for officialtim e are us e d for auth orize d purpos e s and for a re as onabl    e
am ount of tim e ;and al     le gations or s us picions of m is us e of officialtim e are
e ffe ctive ly re s ol
                     ve d.

W e al s o found th at SSA ’ s controls ove r th e proce s s ing and re porting of official
tim e are not s ufficie nt to provide re as onabl e as s urance th at th e data in its re port
to Congre s s is re l
                    iabl e.

CO NCLUSIO NS AND RECOMMENDATIO NS

W e s pe cifical l
                 y e xam ine d SSA ’ s cal culation of officialtim e h ours re porte d as us e d
in Fis calYe ar (FY)19 9 6. For th at FY, SSA re porte d th at 481,9 45 h ours w e re
s pe nt on officialtim e activitie s at a cos t of $14.7 m il   lion. W e w e re unabl   e to
ve rify th is data be caus e w e concl   ude d th at m anage m e nt ove rs igh t and inte rnal
control  s w e re not ade q uate to e ns ure th at officialtim e w as b e ing us e d in
com pl  iance w ith appl icabl e crite ria and th e te rm s of th e re l
                                                                       e vant col l
                                                                                  e ctive
bargaining agre e m e nts , and th at th e data us e d to de te rm ine th e cos t of official
tim e w as not re l    e.
                    iabl

To corre ct th e s e w e ak ne s s e s , w e re com m e nd th at SSA :

• M aintain accurate , up-to-date lis tings of union re pre s e ntative s and us e th e m to
  m onitor w h ich individual
                            s are us ing officialtim e and th e num be r of auth orize d
  us e rs .

• Im prove its ove rs igh t to be tte r de te rm ine w h e th e r officialtim e is b e ing us e d for
  an appropriate activity and for an appropriate am ount of tim e .

• Im prove proce dure s to be tte r e ns ure th at al
                                                    le gations or s us picions of s us pe cte d
                   ve d in a tim e l
  abus e are re s ol               y m anne r.

• Im prove controls to be tte r e ns ure th at officialtim e data is com pl e te and
  accurate , incl
                uding clarifying w h ich activitie s s h oul d be re porte d as official
  tim e .

• Furth e r, to com pl
                     y w ith th e O ffice of Pe rs onne lM anage m e nt’ s re q ue s t for
  Cale ndar Ye ar (CY)19 9 8 data on officialtim e , SSA s h oul   d e s tabl is h a



                                                  iii
   m e ch anis m to e val uate th e be ne fits and dis advantage s of officialtim e and its
   im pact on SSA ’   s s e rvice to th e publ ic.

AGENCY CO M M ENTS

O n a ge ne rall   e ve l
                        , SSA be l ie ve d th e re port s h oul
                                                              d ack now le dge th e actions it h as
al re ady tak e n to im prove th e accuracy of its officialtim e re porting proce s s , as w e l      l
as ack now l    e dge th e im pact of adm inis trative cas e l  aw de cis ions on th e param e te rs
in w h ich th e A ge ncy m us t ope rate . To s upport th is , SSA l    is te d s pe cific actions it
h ad tak e n to im prove th e tim e re porting proce s s . Al    s o, SSA s tate d th at m any of
our re com m e ndations appe ar to as k th e A ge ncy to go be yond th e cons traints
e s tablis h e d by adm inis trative cas e l  aw .

SSA ge ne ral   ly agre e d w ith al lof th e s pe cific re com m e ndations e xce pt for one --th e
ne e d to cl arify w h e th e r activitie s s h oul
                                                  d be re porte d as Partne rs h ip tim e , official
tim e , or A ge ncy duty tim e .

O IG RESPO NSE

W e re vis e d th e re port to ack now l  e dge th at SSA h as tak e n actions to im prove th e
accuracy of th e tim e re porting proce s s . In m ak ing our re com m e ndations , our
inte nt is to e ns ure com pl  iance w ith th e officialtim e re porting re q uire m e nts of th e
curre nt col   l
               e ctive bargaining agre e m e nts . IfSSA is unabl      e to im pl e m e nt our
re com m e ndations w ith in th e confine s of th e curre nt agre e m e nts and th e
param e te rs s e t by adm inis trative cas e l  aw , it s h ould addre s s th e m during
ne gotiations for future col     le ctive bargaining agre e m e nts . Ifs uch ne gotiations
prove uns ucce s s ful  , SSA m ay w is h to s e e k a l  e gis l
                                                                ative re s ol
                                                                            ution. W e dis agre e
th at th e re is no ne e d to cl arify ins tructions re garding w h e th e r activitie s s h oul
                                                                                               d be
re porte d as Partne rs h ip tim e , officialtim e , or A ge ncy duty tim e .




                                                 iv
                           TA BLE O F CO NTENTS


                                                                                                     Page


EXECUTIVE SUM M A RY..........................................................................i


INTRO D UCTIO N ...................................................................................1


SCO PE AND M ETH O D O LO GY ................................................................4


RESULTS O F REVIEW ...........................................................................7


    SSA M A NAGEM ENT O VERSIGH T O F O FFICIA LTIM E ............................7


    •	 SSA Ne e ds to M aintain A ccurate Lis tings of D e s ignate d Union

        Re pre s e ntative s ...........................................................................8

    •	 Supe rvis ors Ne e d to Ens ure th at Re q ue s ts for O fficialTim e A re

        for Auth orize d Activitie s ...............................................................9

    • Supe rvis ors Sh oul
                         d Ens ure th at O fficialTim e Is A pprove d in

        Advance .................................................................................. 11

    • SSA Ne e ds to Ens ure th at Exce s s ive O fficialTim e Is Not Us e d ......... 12


    • SSA Ne e ds to Effe ctive l
                                y Re s ol
                                        ve A l
                                             le gations or Sus picions of

        M is us e of O fficialTim e ............................................................... 14


    SSA ’

        S PRO CESSING A ND REPO RTING O F O FFICIA LTIM E ................... 15

    • Com pl
           e te ne s s , Accuracy, and Re te ntion of O fficialTim e

        Re cords ................................................................................... 16

    • SSA Ne e ds to Ens ure th at O fficialTim e Is Cons is te ntl
                                                                  y

        Re porte d for Union O ffice rs ......................................................... 19

    •	 SSA Ne e ds to Ens ure th at Partne rs h ip A ctivitie s A re

        Cons is te ntl

                     y Re porte d ................................................................ 20


    NEW LEGISLA TIO N A FFECTING O FFICIA LTIM E ................................. 21


    • O fficialTim e Sh oul
                          d Be Eval
                                  uate d ................................................ 21
    • O fficialTim e No Longe r an Expe ns e of SSA ’

                                                    s Trus t Funds ............... 22


CO NCLUSIO NS AND RECO M M END A TIO NS............................................ 23

AGENCY CO M M ENTS AND OIG RESPO NSE ........................................... 26

A PPEND ICES
A ppe ndix A - SSA O fficialTim e Form s
                                          ow ch arts
A ppe ndix B - O fficialTim e Re porting Fl
A ppe ndix C - A ge ncy Com m e nts
A ppe ndix D - M ajor Re port Contributors
A ppe ndix E - SSA O rganizationalCh art
                                     INTRO D UCTIO N


O BJECTIVE

Th e obje ctive of th is audit w as to de te rm ine w h e th e r officialtim e for union
activitie s at SSA w as b e ing us e d in com pl iance w ith re l  e vant law s , re gul
                                                                                       ations ,
and contractual(col     l
                        e ctive bargaining)agre e m e nts , and w h e th e r SSA produce s
re l
   iable inform ation to de te rm ine th e cos ts of officialtim e .

BACKGROUND

Unions at SSA

Th e re are th re e unions at SSA --NTEU, NFFE, and A FGE. Col       le ctive ly, th e y
re pre s e nt approxim ate l
                           y 52,000 bargaining unit e m pl  oye e s for w h ich th e re are
about 1,800 union re pre s e ntative s . O f th os e 1,800 union re pre s e ntative s ,
145 w ork ful    l
                 -tim e on union activitie s . AFGE is by far th e large s t union
re pre s e nting about 9 6 pe rce nt of SSA ’ s bargaining unit e m ploye e s . Provis ions
re garding h ow th e th re e unions w il lope rate at SSA are s e t forth in various
col l
    e ctive bargaining agre e m e nts .

Alth ough th re e unions re pre s e nt SSA e m pl  oye e s , th e re s ul
                                                                        ts of our re vie w
prim aril
        y addre s s th e contract provis ions and pol      icie s and proce dure s for approving
and re porting officialtim e for A FGE union re pre s e ntative s . W e focus e d on A FGE
                                                 s bargaining unit e m pl
be caus e it re pre s e nts 9 6 pe rce nt of SSA ’                           oye e s .

O fficialTim e

A s auth orize d by 5 Unite d State s Code , s e ction 7131, union re pre s e ntative s m ay
be grante d officialtim e 1 to conduct ce rtain union activitie s . For e xam pl           e , SSA is
re q uire d to auth orize officialtim e for th e ne gotiation of a col       le ctive bargaining
agre e m e nt. W ith ce rtain e xce ptions , officialtim e w il    lbe grante d in any am ount
agre e d to by th e union and m anage m e nt in a col        le ctive bargaining agre e m e nt th at
h as b e e n de e m e d by th e partie s to be re as onabl  e , ne ce s s ary, and in th e publ   ic
inte re s t. Com m onl   y auth orize d re pre s e ntationalactivitie s incl   ude re pre s e nting


1
   A n SSA m e m orandum date d D e ce m be r 8, 19 9 7, de fine s officialtim e as tim e during w h ich an
e m ploye e oth e rw is e w oul
                              d be pe rform ing A ge ncy as s igne d w ork , but th e e m pl oye e is auth orize d by
law , re gul ation, or ne gotiate d agre e m e nt to s pe nd tim e re pre s e nting union and/or bargaining unit
e m ploye e s .


                                                          1

e m ploye e s in com pl
                      aints by or agains t m anage m e nt;bargaining ove r ch ange s in
w ork ing conditions ;th e application of pe rs onne lpolicie s ;and ne gotiating union
contracts w ith m anage m e nt.

Th e th re e unions and SSA h ave ne gotiate d col       le ctive bargaining agre e m e nts th at
contain provis ions re garding l    im its on th e us e of officialtim e . Som e cate gorie s of
activitie s h ave l im its on th e num be r of h ours th at can be us e d for officialtim e .
O th e rs l
          im it th e type of union pos ition or th e ove ral    ltim e ch arge d by th e unions .
Som e cate gorie s of activitie s h ave no l    im its on th e num be r of h ours th at can be
ch arge d as l  ong as th e activitie s are cons ide re d re as onabl  e . Th e colle ctive
bargaining agre e m e nts al   s o addre s s th e num be r of union re pre s e ntative s th at are
auth orize d to us e officialtim e and h ow it s h oul    d be re corde d.

SSA h as is s ue d pol   icie s and proce dure s for m anage rs and s upe rvis ors th at gove rn
th e us e of officialtim e .2 Suppl   e m e ntalguidance h as b e e n is s ue d addre s s ing
is s ue s s uch as d e fining officialtim e and w h e n its us e is appropriate , th e diffe re nt
type s of officialtim e , w h e n a re q ue s t to us e officialtim e s h oul
                                                                            d be grante d or
de nie d, w h ich activitie s are appropriate us e s of officialtim e , and w h at type of data
ne e ds to accom pany a re q ue s t for officialtim e .

SSA is obl     igate d to pay its e m pl  oye e s w h il
                                                       e th e y are pe rform ing auth orize d
activitie s on officialtim e . SSA al      s o provide s s upport for s uch ite m s as union
office s pace , s uppl   ie s , and e q uipm e nt. Th e cos t traditional  l
                                                                           y h as b e e n al
                                                                                           locate d
be tw e e n th e SocialSe curity trus t funds and ge ne ralre ve nue s in th e s am e
proportion as al     lSSA adm inis trative e xpe ns e s . H ow e ve r, Pub l   ic Law 105-783
re q uire s th at, be ginning in FY 19 9 8, th e cos t al    locate d from th e trus t funds b e
re im burs e d from ge ne ralre ve nue s by th e U.S. D e partm e nt of th e Tre as ury.

Partne rs h ip

In 19 9 3, Pre s ide nt Cl
                         inton is s ue d Exe cutive O rde r 12871, w h ich articul        ate d a ne w
vis ion of labor/m anage m e nt re l    ations cal le d “Partne rs h ip.” Partne rs h ip re q uire s
th at age ncie s invol ve th e ir l
                                  abor organizations as ful      lpartne rs w ith m anage m e nt in
ide ntifying age ncy probl   e m s and crafting s ol    utions . Union re pre s e ntative s are to
be cons ide re d an inte gralpart of th e Partne rs h ip te am s th at are cre ate d to addre s s
and s ol ve age ncy probl   e m s , e s pe cial
                                              ly th os e th at affe ct s e rvice to th e publ ic.
D uring th e pe riod of our re vie w , th e h ours s pe nt on Partne rs h ip activitie s by union
2
   Th e m os t com pre h e ns ive book for m anage rs and s upe rvis ors re garding adm inis tration of th e
NationalA gre e m e nt Be tw e e n A FGE and SSA is th e SSA M anage rs Labor Re l        ations H andbook
(SSA Pub. No. 27-04, Se pte m be r 19 9 3). Ch ange s , re m inde rs , or oth e r guidance are al    s o ofte n
dis tribute d by m e m orandum s . For e xam pl e , in D e ce m be r 19 9 7, SSA s e nt a m e m orandum to al  l
s upe rvis ors and m anage rs on th e s ubje ct of officialtim e in th e form at of q ue s tions and ans w e rs .
3
  Th e D e partm e nts of Labor, H e al
                                      th and H um an Se rvice s , and Education A ppropriations Bil
                                                                                                  lfor
19 9 8.


                                                         2

re pre s e ntative s m ay or m ay not h ave be e n cons ide re d officialtim e . In

D e ce m be r 19 9 7, SSA is s ue d guidance atte m pting to cl    arify w h ich activitie s s h oul
                                                                                                   d

be cons ide re d Partne rs h ip activitie s and th at th e s e activitie s s h oul

                                                                                 d not be
cons ide re d officialtim e .

Pre vious Congre s s ionalH e arings and GA O Re port on Union A ctivitie s at SSA

Th e H ous e Com m itte e on W ay s and M e ans , Subcom m itte e on SocialSe curity,
h el
   d h e arings on officialtim e in June 19 9 6. Th e h e arings e xam ine d th e us e of th e
SocialSe curity trus t funds to finance union activitie s , th e incre as e in th e us e of
officialtim e and its cos ts , th e balance of pow e r be tw e e n th e union and SSA
m anage m e nt, and th e e ffe ct th at th e us e of officialtim e h as on s e rvice to th e
publ ic.

In O ctobe r 19 9 6, GA O provide d th e Subcom m itte e w ith a re port4 on th e re s ul   ts of
its re vie w of th e tim e and cos ts as s ociate d w ith union activitie s at SSA . GA O ’   s
re vie w cons is te d of inte rvie w s w ith SSA m anage m e nt and union re pre s e ntative s
and an e xam ination of officialtim e re cords for FY 19 9 5. GA O ’       s re vie w of official
tim e re cords w as l  im ite d to one SSA re gionaloffice and s e l e cte d H e adq uarte rs ’
com pone nts . GA O re porte d th e fol     low ing:

    • SSA ’ s officialtim e -re porting s y s te m s do not ade q uate l
                                                                       y track th e num be r of
      union re pre s e ntative s ch arging tim e to union activitie s or th e actualtim e
      s pe nt.

    • A l
        im ite d ve rification of th e h ours s pe nt on union activitie s as re porte d by
      SSA found th at officialtim e w as unde rre porte d.

    • Th e s e l
               e ction of union re pre s e ntative s and th e am ount of tim e th e y s pe nd
      on union activitie s are de te rm ine d by th e union w ith out th e cons e nt of l  ocal
      m anage rs .

    • Som e SSA fie l   d m anage rs s tate d th at th e y l
                                                           ack auth ority in de cis ions about
      w h ich individual  s are auth orize d to us e officialtim e and h ow m uch tim e
      th e y s pe nd on union activitie s and th is caus e s probl e m s in m anaging th e
      dail y activitie s of th e ir ope rations .

Re ports of O fficialTim e

Th e Se nate A ppropriations Com m itte e re q ue s te d th at, be ginning w ith FY 19 89 , al
                                                                                             l
future SSA budge t jus tifications incl
                                      ude inform ation on prior e xpe nditure s for union

4
  GAO Re port (GA O /H EH S-9 7-3, O ctobe r 19 9 6)e ntitl
                                                          e d, “
                                                               SocialSe curity: Union A ctivity at th e
SocialSe curity Adm inis tration.”


                                                    3

activitie s . SSA h as provide d th is inform ation by pre paring re ports of officialtim e
us age and its cos ts . For FY 19 9 6, SSA re porte d th at it paid $14.7 m il          lion in
union-re l  ate d e xpe ns e s , ($13.4 m illion for s al
                                                        arie s and $1.3 m il   lion for office
s pace , te l e ph one s , trave l, and arbitration e xpe ns e s ). For th at s am e tim e pe riod,
SSA re porte d th at union re pre s e ntative s s pe nt 481,9 45 h ours on officialtim e
activitie s .

O ffice of th e Ins pe ctor Ge ne ralRe vie w s

In addition to our re vie w of officialtim e , th e O ffice of th e Ins pe ctor Ge ne ralh as
conducte d conte m porane ous re vie w s of e m pl  oye e obs e rvations on th e us e of
officialtim e and on Partne rs h ip activitie s . Additionalre ports w il  lals o be is s ue d:

• Non-Council220 Union Re pre s e ntative and M anage m e nt O bs e rvations on th e
  Us e and M anage m e nt of O fficialTim e at th e SocialSe curity Adm inis tration
  (A-02-9 8-02002);

• Partne rs h ip A ctivitie s at th e SocialSe curity Adm inis tration (A -13-9 8-72023);
  and

• Council220 Union Re pre s e ntative and M anage m e nt O bs e rvations on th e Us e
  and M anage m e nt of O fficialTim e at th e SocialSe curity Adm inis tration
  (A-02-9 7-72002).

SCO PE AND M ETH O D O LO GY

Th e obje ctive s of our re vie w w e re to de te rm ine w h e th e r:

   • officialtim e for union activitie s is us e d in com pl
                                                           iance w ith re l
                                                                          e vant l
                                                                                 aw s ,
     re gulations , and contractualagre e m e nts ;and

   • SSA produce s re l
                      iabl
                         e inform ation to de te rm ine th e cos t of officialtim e .

In conducting th is audit, w e :

   • re vie w e d th e CivilSe rvice Re form A ct of 19 78, Exe cutive O rde r 12871, and
     SSA /Union col     l
                        e ctive bargaining contracts and agre e m e nts on officialtim e
     and Partne rs h ip;

   • re vie w e d te s tim ony and s tate m e nts from pre vious congre s s ionalh e arings ;

   • re vie w e d GA O ’
                       s re port on union activitie s at SSA ;




                                                  4

   • e valuate d SSA ’
                     s m anage m e nt control
                                            s ove r th e proce s s ing and re porting of
     officialtim e ;

   • m e t w ith pe rs onne lin SSA ’
                                    s O ffice of Labor-M anage m e nt and Em pl
                                                                              oye e
     Re lations (O LM ER)w h o com pil  e officialtim e h ours ;

   • m e t w ith pe rs onne lin SSA ’
                                    s O ffice of Budge t (O B)w h o cal
                                                                      cul
                                                                        ate and re port
     th e cos ts of officialtim e ;

   • e xam ine d SSA ’s proce s s ing and re porting of officialtim e h ours and h ow th e
     cos ts of officialtim e are cal culate d;

   • inte rvie w e d 66 SSA s upe rvis ors and 42 union re pre s e ntative s w h o are
     invol ve d in th e day-to-day activitie s of re q ue s ting, approving and re porting
     officialtim e ;

   • e xam ine d a random s am pl    e of officialtim e re cords for FY 19 9 6 from
     100 office s in SSA ’   s A tlanta, D allas , and Ne w York re gions to de te rm ine
     w h e th e r th e am ount of tim e w as accurate l y re porte d and w h e th e r official
     tim e w as us e d in com pl  iance w ith contractualagre e m e nts b e tw e e n th e
     unions and SSA ;

   • e xam ine d al lof th e avail abl e officialtim e re cords for FY 19 9 6 from SSA
     H e adq uarte rs in Bal tim ore , M aryland, and th e O ffice of H e arings and
     A ppe als (O H A )in Fal  ls Ch urch , Virginia, to de te rm ine w h e th e r th e am ount
     of tim e w as accurate l   y re porte d and w h e th e r officialtim e w as us e d in
     com pl iance w ith contractualagre e m e nts b e tw e e n th e unions and SSA ;and

   • e xam ine d SSA ’s FY 19 9 6 re port to Congre s s ionalA ppropriations
     Com m itte e s on officialtim e .

D uring our re vie w , w e e ncounte re d re s is tance and de l   ay s in obtaining re q ue s te d
inform ation. A FGE ch al     le nge d th e l    ity of our re vie w and advis e d union
                                             e gal
official s not to coope rate w ith our audit. Afte r s e ve ralm e e tings and m uch
corre s ponde nce w ith SSA and Union official        s , th e n Acting Com m is s ione r
Joh n J. Cal  lah an ins tructe d Age ncy official   s to atte m pt to ach ie ve coope ration
w ith our re vie w . AFGE al     s o advis e d union re pre s e ntative s to coope rate w ith our
re vie w . H ow e ve r, AFGE s tate d th at it w as up to e ach union re pre s e ntative to
ch oos e w h e th e r to do s o. Cons e q ue ntl y, onl y 42 of th e 73 union re pre s e ntative s
th at w e contacte d agre e d to be inte rvie w e d.

W e h ad al s o planne d to re vie w a ne w s y s te m th at SSA is d e ve l
                                                                           oping for track ing
th e us e of officialtim e , th e O fficialUnion Tim e Track ing Sys te m (O UTTS). SSA
advis e d GA O th at it w as d e ve loping th is s y s te m to provide m ore accurate data on


                                                 5

th e am ount of officialtim e s pe nt on union activitie s . W e did not re vie w O UTTS
be caus e it w as s tillin a training e nvironm e nt during our re vie w and SSA h ad not
ful l
    y im ple m e nte d it untilafte r our re vie w e nde d.
O ur audit cons is te d of a re vie w of SSA ’   s re porte d officialtim e for FY 19 9 6. O ur
w ork w as pe rform e d from Fe bruary 19 9 7 th rough Fe bruary 19 9 8 at SSA in
Bal tim ore , M aryl and (H e adq uarte rs );O H A , in Falls Ch urch , Virginia;and SSA ’ s
D allas , Atlanta, and Ne w York Re gions . O ur audit w as conducte d in accordance
w ith ge ne rally acce pte d gove rnm e nt auditing s tandards .




                                               6

                          RESULTS O F REVIEW


Th e obje ctive s of th is re vie w w e re to de te rm ine w h e th e r officialtim e for union
activitie s at SSA w as us e d in com pl    iance w ith re le vant l  aw s , re gul
                                                                                  ations , and
contractualagre e m e nts and w h e th e r SSA produce s re l       iabl e inform ation to
de te rm ine th e cos ts of officialtim e . W e s pe cifical ly e val  uate d th os e controls th at
e ns ure th at:

   • onl
       y auth orize d union re pre s e ntative s us e officialtim e ;

   • officialtim e is approve d onl
                                  y for auth orize d activitie s and for an appropriate
     am ount of tim e ;

   • officialtim e is com pl
                           e te l
                                y and accurate l
                                               y re porte d;and

   • m is us e of officialtim e is ide ntifie d, re porte d, and addre s s e d.

W e al
     s o de te rm ine d w h e th e r th e am ount of tim e and cos ts as s ociate d w ith SSA ’
                                                                                              s
FY 19 9 6 officialtim e w as accurate l     y re porte d to th e Congre s s .

Th e re s ul
           ts of our audit are pre s e nte d unde r th e fol
                                                           low ing th re e topics .

   • SSA M anage m e nt O ve rs igh t of O fficialTim e

   • SSA ’
         s Proce s s ing and Re porting of O fficialTim e

   • Ne w Le gis l
                 ation A ffe cting O fficialTim e

SSA M A NAGEM ENT O VERSIGH T O F O FFICIA LTIM E

Th e O ffice of M anage m e nt and Budge t (O M B)Circul         ar A -123, M anage m e nt
A ccountabil   ity and Control , s tate s th at re s ource s s h ould be e fficie ntl
                                                                                    y and
e ffe ctive l
            y al l
                 ocate d for duly auth orize d purpos e s . In addition, m anage m e nt s h oul d
h ave control   s in pl
                      ace th at provide re as onabl    e as s urance th at tim e and atte ndance
activitie s are prope rly auth orize d and approve d. Supe rvis ors m us t be aw are of th e
abs e nce of and tim e w ork e d by e m pl   oye e s to e ns ure th e re l
                                                                         iability of tim e and
atte ndance re cords .




                                                 7

W e ide ntifie d s e ve ralw e ak ne s s e s in SSA ’
                                                    s m anage m e nt ove rs igh t of officialtim e .
W e found th at SSA control       s do not provide re as onabl   e as s urance th at:

    • onl
        y curre ntl
                  y de s ignate d union re pre s e ntative s us e officialtim e ;

    • re q ue s ts for officialtim e are for auth orize d purpos e s ;

    • re q ue s ts for officialtim e are approve d in advance ;

    • l
      im its on th e us e of officialtim e are obs e rve d;and

    • al
       le gations or s us picions of m is us e of officialtim e are e ffe ctive l
                                                                                y re s ol
                                                                                        ve d.

SSA Ne e ds to M aintain A ccurate Lis tings of D e s ignate d Union Re pre s e ntative s

A rticle 30, s e ction 2 of th e A FGE/SSA NationalA gre e m e nt (th e A FGE/SSA
A gre e m e nt)s tate s th at A FGE w il lprovide SSA w ith a com pl     e te , up-to-date lis ting
of al lde s ignate d union official  s incl  uding e ach official’ s nam e , location, and
te l
   e ph one num be r. Th is provis ion re q uire s A FGE to notify th e A ge ncy of any
ch ange s to th e l is ting. Furth e r, th is provis ion note s th at SSA w il  lgrant official
tim e to onl  y th os e individuals w h o are de s ignate d in w riting as union official   s.

Th e A FGE/SSA A gre e m e nt contains provis ions th at, al         th ough inte nde d to e ns ure
th at e m pl oye e s h ave acce s s to union re pre s e ntative s , e ffe ctive l
                                                                                y lim it th e num be r
of union re pre s e ntative s for a particul   ar office or com pone nt. For e xam pl        e,
A rticle 30, A ppe ndix A , s e ction 1 of th e A FGE/SSA A gre e m e nt s tate s th at SSA
w illonl  y re cognize 1 Union Ste w ard for e ach 200 bargaining unit e m pl            oye e s at
H e adq uarte rs . Curre nt l  is tings are ne ce s s ary to e ns ure th at onl y de s ignate d union
re pre s e ntative s us e officialtim e and th at l   im its on th e num be r of re pre s e ntative s
are corre ct.

In its 19 9 6 re port on union activity at SSA , GA O found th at “th e l            is t of auth orize d
re pre s e ntative s m aintaine d by th e A ge ncy w as outdate d and incom pl            e te .” Th is
re m aine d true during our audit pe riod. SSA coul             d not re adil y provide us w ith
accurate l    is tings of auth orize d union re pre s e ntative s . SSA advis e d us th at th is
w as b e caus e th e l  is t of re pre s e ntative s w as fl uid;i.e ., nam e s and te l e ph one
num be rs can virtual      l
                           y ch ange on a dail      y bas is . Als o, SSA doe s not m aintain a
nationall    is ting of union re pre s e ntative s . Curre nt data is m aintaine d at th e l      ocal
le ve l
      . H ow e ve r, w e found th at l      ocall is ts w e re not al w ay s curre nt.

Th e data w e re ce ive d w h e n w e re q ue s te d a l is ting of H e adq uarte rs union
re pre s e ntative s , w h ich accounte d for about 73 of th e e s tim ate d 1,800 union
re pre s e ntative s national  ly, il
                                    lus trate d th e inaccuracy of th e l  is tings . Th e l
                                                                                           is t SSA
initially provide d containe d union re pre s e ntative s from oth e r Fe de ralage ncie s .


                                                    8

Cons e q ue ntl  y, w e coul  d not dis tinguis h w h ich individual   s w e re SSA union
re pre s e ntative s . SSA e xpl   aine d th at th e lis ting containe d non-SSA e m pl    oye e s
be caus e our re q ue s t w as for a l   is ting of Local19 23 re pre s e ntative s , w h ich
corre ctl  y include s e m pl  oye e s from oth e r age ncie s . Afte r a ne w re q ue s t, SSA
provide d a re vis e d l is ting of onl  y SSA union re pre s e ntative s . From th is l   is ting, w e
pl ace d 23 cal   ls and found th at 1 individualh ad not be e n a union re pre s e ntative for
ove r 2 ye ars , 1 w as ne ve r a re pre s e ntative , 2 h ad be e n re tire d for ove r 1 ye ar,
and 9 coul     d not be re ach e d at th e te l e ph one num be rs provide d.

Supe rvis ors ofte n coul    d not provide any docum e ntation to indicate th at th e
e m pl oye e re q ue s ting officialtim e w as a curre ntl   y de s ignate d union re pre s e ntative .
For e xam pl   e , during our re vie w s of SSA ’   s re gionaloffice s , w e found th at
62 office s e ith e r ne ve r re ce ive d a de s ignation notice , coul  d not l ocate th e m , or did
not re tain th e m . Th e inabil   ity of SSA to provide docum e ntation and accurate
lis tings of union re pre s e ntative s al  s o pre ve nte d us from de te rm ining w h e th e r
individual   s w h o us e d officialtim e during FY 19 9 6 w e re auth orize d union
re pre s e ntative s . For e xam pl  e , bas e d on our re vie w of officialtim e re cords in th e
re gionaloffice s w e coul     d not de te rm ine if 66 individual    s w e re auth orize d union
re pre s e ntative s .

Th e inaccurate l  is tings al  s o pre ve nt SSA from ade q uate l     y m onitoring th e num be r
of auth orize d re pre s e ntative s to e ns ure th at A FGE doe s not e xce e d th e A FGE/SSA
A gre e m e nt provis ions . For e xam pl    e , at H e adq uarte rs th e m os t re ce nt lis tings
s h ow th e re are 11 A s s is tant Ch ie f Ste w ards (ACS)auth orize d to us e officialtim e .
Th e A FGE/SSA A gre e m e nt, Articl      e 30, A ppe ndix A , s e ction 1, provide s for 1 ACS
for e ve ry 1,500 bargaining unit e m pl                                                   d onl
                                                oye e s , w h ich indicate s th e re s h oul      y be
7 ACSs.

SSA provide d us w ith e xam pl     e s th at it doe s notify th e union w h e n it be com e s
aw are th at th e num be r of auth orize d re pre s e ntative s e xce e ds th e A FGE/SSA
A gre e m e nt provis ions . H ow e ve r, th e re are inade q uate control   s to e ns ure th at th e
num be r of auth orize d union re pre s e ntative s are not e xce e de d at any give n tim e .
To pre ve nt th is from occurring, SSA ne e ds to m onitor th e l       is tings to e ns ure th at
th e y re m ain curre nt and com pare th e m to th e A FGE/SSA A gre e m e nt l       im its on th e
num be r of auth orize d union re pre s e ntative s . W e found th at th is is not routine l    y
done .

Supe rvis ors Ne e d to Ens ure th at Re q ue s ts for O fficialTim e A re for Auth orize d
A ctivitie s

Th e A FGE/SSA A gre e m e nt contains provis ions th at officialtim e s h al   lbe approve d
onl y for auth orize d l abor-m anage m e nt activitie s . Th e auth orize d activitie s are
s pe cifie d in th e A FGE/SSA A gre e m e nt, Articl e 30, A ppe ndice s A th rough F. For
e xam pl  e , s om e com m on auth orize d activitie s are :


                                                   9

• m e e tings re q ue s te d by auth orize d m anage m e nt official
                                                                   s;

• m onth l
         y and q uarte rl
                        y l
                          abor re l
                                  ations m e e tings ;

• re pre s e nting e m pl
                        oye e s in grie vance s , arbitration, Privacy Act com pl
                                                                                aints ;

• re s ponding to m anage m e nt propos al
                                         s s ubm itte d to th e Union for com m e nt;

• m id-te rm cons ul
                   tation and/or bargaining on m anage m e nt initiate d ch ange s ;and

• Fe de ralLabor Re l
                    ations A uth ority and M e rit Sys te m s Prote ction Board
  proce e dings .

Th e SSA m anage r’     s guidance for officialtim e for union re pre s e ntative s , date d
D e ce m be r 8, 19 9 7, s tate s th at s upe rvis ors ne e d to re ce ive s ufficie nt ge ne ral
inform ation from union re pre s e ntative s to de te rm ine if th e re q ue s t for officialtim e
is for an approve d purpos e and for a re as onabl         e am ount of tim e . H ow e ve r, SSA
guidance al   s o s tate s th at s upe rvis ors s h ould approve re q ue s ts unl  e s s th e y are
cl     y unre as onabl
   e arl                 e . In m os t cas e s , officialtim e m us t be approve d by a
s upe rvis or be fore union re pre s e ntative s are pe rm itte d to l   e ave th e w ork s ite to
dis ch arge th e ir functions . In addition, s tatutory and contractualprovis ions proh ibit
th e us e of officialtim e for ce rtain activitie s , s uch as any inte rnalunion bus ine s s .

W e found th at s upe rvis ors us ual     l
                                          y cannot de te rm ine w h e th e r th e re q ue s t for
officialtim e is for an auth orize d activity be caus e inform ation provide d on th e
officialtim e form s is incom pl     e te or th e officialtim e form s do not re q uire s pe cific
inform ation. For e xam pl    e , th e form s us e d by union re pre s e ntative s at
H e adq uarte rs and fie ld office s re q uire a s pe cific code to de s cribe th e type of
activity, w h ile th e form s us e d by union re pre s e ntative s in oth e r com pone nts s im pl y
h ave a bl ank s pace to de s cribe th e “Nature of Bus ine s s .”

O ur re vie w of th e officialtim e form s for union re pre s e ntative s at H e adq uarte rs
ill
  us trate s th e condition of officialtim e re cords th at s upe rvis ors m us t re vie w to
de te rm ine w h e th e r th e re q ue s t for officialtim e is appropriate . O fficialtim e form s
w e re not al  w ay s com pl   e te d us ing th e s pe cific code s on th e form de s cribing th e
type of activity. Appe ndix A to th is audit re port incl          ude s a s am pl   e copy of a
H e adq uarte rs M onth l   y O fficialTim e Re cord. Th is form provide s th e code s and th e
de s cription of particul    ar type s of activity. For e xam pl     e , F1-8 is th e code for m id­
te rm ne gotiations and F2-2 is th e code for grie vance s . In contras t, th e form s w e
re vie w e d containe d e ntrie s s uch as “m e e ting”or “confe re nce ,”or a de s tination
s uch as “Union O ffice ,”“M e tro W e s t,”“A nne x Buil         ding”or w e re l    e ft bl
                                                                                            ank . In
235 of th e 433 form s w e re vie w e d, th e inform ation w as vague , coul             d not be
e as il
      y ve rifie d, and a s upe rvis or coul    d not de te rm ine w h e th e r th e activity w as an


                                                 10

appropriate us e of tim e . Th e s e de s criptions did not com pl       y w ith th e form s
e s tabl is h e d unde r th e col le ctive bargaining agre e m e nts .
Bas e d on our inte rvie w s w ith 12 s upe rvis ors of union re pre s e ntative s at
H e adq uarte rs , 10 s tate d th at th e y did not k now or atte m pt to judge w h e th e r th e
re q ue s t for officialtim e w as appropriate . W e be l    ie ve th e principalre as ons for
m anage m e nt’     s l
                      ack of inform ation on th e proprie ty of re q ue s ts w e re th at th e
officialtim e form s do not re q uire e nough inform ation for inform e d judgm e nt, th e
form s w e re ofte n com pl     e te d but w ith vague inform ation, or atte m pts to ge t
s pe cifics m ay be q ue s tione d by uppe r m anage m e nt or ch al     le nge d by th e union.
D e s pite th e l  ack of inform ation, 5 of th e 12 s upe rvis ors b e l ie ve d th at th e re w e re
abus e s of officialtim e in th at s om e tim e s it m ay h ave be e n us e d for inappropriate
activitie s .

Supe rvis ors Sh oul
                   d Ens ure th at O fficialTim e Is A pprove d in Advance

Th e NTEU/SSA col      l
                       e ctive bargaining agre e m e nt (NTEU/SSA A gre e m e nt)s tate s
th at, w h e re practicable , officialtim e for union re pre s e ntative s w il lbe approve d in
advance . Th e NTEU/SSA A gre e m e nt al      s o s tate s th at s upe rvis ors w il
                                                                                    lre cord th e
us e of officialtim e by NTEU re pre s e ntative s . Th e Labor Re l      ations H andbook for
M anage rs and Supe rvis ors indicate s th at s upe rvis ors w il    ls e nd a m onth ly re cord of
approve d officialtim e to th e re gionall   abor re l ations office .

W e re vie w e d th e officialtim e re cords for NTEU union re pre s e ntative s in SSA ’    s
re gionaloffice s and found a l      ax approvalproce s s for officialtim e . W e found
ins tance s w h e re re porte d officialtim e w as not s upporte d by th e m onth l   y
s upe rvis ory re cords of approve d officialtim e . Supe rvis ors w e re not approving and
docum e nting officialtim e on pre s cribe d officialtim e form s . Ins te ad, s upe rvis ors
re porte d officialtim e bas e d on inform alconve rs ations , m e m oranda, or page s from
cal e ndars s ubm itte d by NTEU union re pre s e ntative s . Th e inform ation provide d did
not fre q ue ntl  y s h ow th e date officialtim e w as us e d, th e am ount of tim e us e d for
e ach activity, or th e re as on for officialtim e . O fficialtim e w as re porte d to
s upe rvis ors at th e e nd of a 6-m onth re porting pe riod, w e l  lafte r th e officialtim e
h ad be e n tak e n. None of th e m e m oranda or page s from cal       e ndars w e re s igne d by
s upe rvis ors to indicate th at th e officialtim e h ad be e n approve d. Cons e q ue ntl   y,
w e concl   ude d th at s upe rvis ors as a m atte r of practice do not pre approve official
tim e re q ue s ts .

Th e A FGE/SSA A gre e m e nt, Articl   e 30, A ppe ndice s A th rough F, ge ne ral      ly pe rm it
union re pre s e ntative s to us e officialtim e afte r re porting to th e ir re s pe ctive
s upe rvis ors and ide ntifying th e purpos e of th e ir activity. Th e officialtim e form s
re q uire a s upe rvis ory s ignature to docum e nt th at officialtim e h as b e e n approve d.
D uring our re vie w of H e adq uarte rs officialtim e re cords , w e found th at ge ne ral     ly
officialtim e re cords w e re approve d. O ur re vie w of 433 officialtim e re cords
s h ow e d th at 28 of th e re cords w e re not s igne d or approve d by a s upe rvis or.


                                                   11

SSA Ne e ds to Ens ure th at Exce s s ive O fficialTim e Is Not Us e d

Th e A FGE/SSA A gre e m e nt, Articl   e 30, A ppe ndice s A th rough F, pl ace s lim itations
on th e am ount of officialtim e th at union re pre s e ntative s m ay us e de pe nding on
th e union re pre s e ntative ’
                              s pos ition, th e com pone nt involve d, and th e type of
activity. W e cons ide re d th e am ount of officialtim e us e d as e xce s s ive if it w as
m ore th an th e am ount al   l
                              ow e d by th e A FGE/SSA A gre e m e nt or m ore th an
ne ce s s ary to pe rform a give n activity.

Lim its by th e Union Re pre s e ntative ’
                                         s Pos ition

   • Union office rs are al    low e d a “re as onabl”am
                                                     e      ount of tim e to accom pl   is h
     th e ir union dutie s w h ich , in practice , ge ne ral
                                                           ly m e ans office rs ch arge
     virtual  y al
              l   lof th e ir tim e as officialtim e .

   • ACSs and Ste w ards are l     im ite d by contract crite ria to a s pe cific num be r of
     h ours for ce rtain activitie s .

Lim its by SSA Com pone nt

   • A t H e adq uarte rs , an ACS is al
                                       low e d up to 312 h ours of officialtim e pe r
     6-m onth pe riod, and a Ste w ard is al  low e d up to 208 h ours of officialtim e
     pe r 6-m onth pe riod.

   • A t O H A , a ch ie f s te w ard is al
                                          low e d up to 25 pe rce nt of th e re gul
                                                                                  ar w ork ing
     h ours pe r ye ar, and a Ste w ard is al    l                                      ar
                                                 ow e d up to 10 pe rce nt of th e re gul
     w ork ing h ours pe r ye ar for officialtim e .

   • A t fie ld office s , th e totalnum be r of h ours for al    lunion re pre s e ntative s is
     cappe d be tw e e n 100,000 and 110,000 h ours pe r ye ar. Th e union
     dis tribute s th e s e h ours to individualre pre s e ntative s . Th e individual
     re pre s e ntative s are l im ite d to 4 h ours pe r w e e k for office s w ith le s s th an
     70 e m pl   oye e s or 10 h ours pe r w e e k for office s w ith 70 or m ore e m pl      oye e s .

   • A t th e O ffice of A s s e s s m e nt (fie l
                                                 d), l
                                                     ocalre pre s e ntative s are al
                                                                                   low e d up to
     4 h ours pe r w e e k for office s up to 70 e m pl      oye e s , and up to 10 h ours pe r
     w e e k for office s of above 70 e m pl       oye e s .

   • A t th e Program Se rvice Ce nte rs , e l e cte d office rs are all
                                                                       ow e d up to
     49 pe rce nt of th e ir w ork ing tim e avail abl e in a m onth , ch ie f s te w ards are
     all
       ow e d up to 25 pe rce nt and s te w ards are al     low e d up to 10 pe rce nt of th e ir
     w ork ing tim e avail abl e in a m onth .



                                                  12

Lim its by Activity

    • Th e pre ce ding l im its or caps on h ours appl   y onl  y to ce rtain officialtim e
      activitie s . Som e auth orize d officialtim e activitie s h ave no s pe cific l   im its .
      Union re pre s e ntative s at H e adq uarte rs are grante d an unl    im ite d am ount of
      tim e for activitie s s uch as pe riodic l abor re lations m e e tings , m e e tings
      re q ue s te d by auth orize d m anage m e nt officials , and m e e tings of Union-
      Adm inis tration com m itte e s .

A t H e adq uarte rs , SSA doe s atte m pt to ide ntify s ituations w h e re th e A FGE/SSA

A gre e m e nt l
               im itations m ay be e xce e de d. For e xam pl     e , O LM ER pe rs onne lm onitor

th e contract provis ions th at pl    ace l im its on officialtim e . O LM ER advis e d us th at
w h e n th e am ount of officialtim e us e d is approach ing th e l      im its , th e y contact th e
union re pre s e ntative ’ s com pone nt w ith advice to de ny any re q ue s ts for tim e w h ich
w oul d e xce e d th e lim its . O ur inte rvie w s w ith s upe rvis ors confirm e d th at th is w as
a com m on practice . D e s pite th is com m on practice , w e ide ntifie d s ituations w h e re
officialtim e w as e xce e de d as e xpl    aine d be low .

W e inte rvie w e d 66 s upe rvis ors and do not be l      ie ve th at s upe rvis ors can ge ne ral    l
                                                                                                       y
te llw h e th e r an e xce s s ive am ount of officialtim e h as b e e n us e d in particul    ar
ins tance s . W h e n w e inte rvie w e d th e s upe rvis ors of H e adq uarte rs union
re pre s e ntative s , 10 s tate d th at th e y did not k now nor coul     d th e y judge w h e th e r
th e am ount of officialtim e re q ue s te d and us e d w as appropriate . W e re vie w e d
officialtim e re cords at H e adq uarte rs and found th at 3 of 42 union re pre s e ntative s
e xce e de d th e A FGE/SSA A gre e m e nt l     im itations . For th e th re e re pre s e ntative s ,
th e re w as no e vide nce th at th e e xce s s ive tim e h ad be e n ide ntifie d and approve d
by th e s upe rvis or or O LM ER. O f th e 50 s upe rvis ors inte rvie w e d from SSA ’          s
re gionaloffice s , 22 s tate d th at th e y do not m onitor contractuall          im itations .

Eve n w h e n AFGE/SSA A gre e m e nt l   im its are m onitore d, th e l  im its onl
                                                                                   y appl  y to
ce rtain cate gorie s of activitie s . Furth e rm ore , s e l
                                                            f-re porting, com bine d w ith
incom pl e te or vague activity de s criptions and no s upe rvis ory ve rification of th e
type of activity, pre ve nte d us from de te rm ining w h e th e r e xce s s ive am ounts of
officialtim e h ad be e n us e d.

W e be l  ie ve a principalre as on for th e l     ack of ove rs igh t re garding pote ntial
e xce s s ive tim e is th e difficul   ty in dis ce rning th e nature of th e activity for w h ich
officialtim e w as re q ue s te d. W ith out k now ing m ore about th e type of activity,
s upe rvis ors h ave ve ry l   ittle abil ity to e val uate th e re as onable ne s s of th e am ount of
tim e re q ue s te d or w h e th e r th e activity is th e type s ubje ct to col   l
                                                                                   e ctive bargaining
agre e m e nt l im itations .




                                                   13

SSA Ne e ds to Effe ctive l
                          y Re s ol
                                  ve A l
                                       le gations or Sus picions of M is us e of O fficial
Tim e

Th e A FGE/SSA A gre e m e nt, Articl e 30, s e ction 3, contains proce duralguidance on
h ow to h andl e al le gations of abus e of officialtim e . Its tate s th at al
                                                                              le ge d abus e s of
officialtim e s h al
                   lbe brough t to th e atte ntion of an appropriate m anage m e nt official
on a tim e l
           y bas is . Th e m anage m e nt officials h ould dis cus s th e m atte r w ith th e
union l ocalor councilpre s ide nt as appropriate .

O ur inte rvie w s w ith s upe rvis ors of union re pre s e ntative s at H e adq uarte rs and th e
re gionaloffice s found th at ins tance s of s us pe cte d abus e are not al     w ay s e ffe ctive l
                                                                                                    y
re s ol
      ve d and th at dis pos ition of th e al  le gations are not al  w ay s k now n by th e
s upe rvis or. O f th e 66 s upe rvis ors w e inte rvie w e d, 14 h ad re porte d cas e s of
s us pe cte d abus e of officialtim e . Th e s upe rvis ors provide d th e fol   ow ing
                                                                                 l
inform ation on th e 14 re fe rral   s of s us pe cte d abus e :

        • 2 cas e s - w e re inve s tigate d and re s ol
                                                       ve d by m anage m e nt;

        • 2 cas e s - w e re inve s tigate d and th e abus e s toppe d;

        • 2 cas e s - s upe rvis ors w e re tol
                                              d to ove rl
                                                        ook th e m ;

        • 7 cas e s - no fe e dback w as e ve r provide d, s o s upe rvis ors did not k now
          th e outcom e ;and

        • 1 cas e - w as “ch e ck e d out”s upe rficial
                                                      ly by m anage m e nt.

Th e A FGE/SSA A gre e m e nt re q uire s union coope ration in abus e inve s tigations by
re q uiring unions to re l     e as e th e ir copie s of officialtim e re cords upon re q ue s t. It
indicate s th at s pe cific union council        s and l ocalunions s h al   lm aintain accurate
re cords to account for al         lofficialtim e us e d by th e ir union re pre s e ntative s . To
accom pl    is h th is , th e union s h al  lm aintain a copy of th e officialtim e re cord. Th is
copy is onl     y s uppos e d to s tate th e nam e of th e pe rs on contacte d. Ifa s upe rvis or
s us pe cts th at a union re pre s e ntative h as abus e d officialtim e , h e /s h e m ay re q ue s t
th e union copy of th e officialtim e re cord. Th e union is re q uire d to provide th e
re cords for m anage m e nt’        s re vie w . D uring our re vie w of SSA ’     s re gionaloffice s ,
w e w e re advis e d th at th is pol      icy w as not al  w ay s fol
                                                                    low e d and th us re s ul  te d in
cas e s of s us pe cte d abus e not be ing re s ol      ve d. In one cas e a m anage m e nt official
re q ue s te d th e union copie s of officialtim e re cords for tw o union re pre s e ntative s
s us pe cte d of abus e . Th e union did not coope rate and fail            e d to provide copie s of
th e officialtim e re cords e ve n afte r s e ve ralfol      low -up re q ue s ts . Th e s us pe cte d
abus e w as s til    lunre s ol ve d at th e e nd of our re vie w .




                                                   14

SSA ’
    S PRO CESSING AND REPO RTING O F O FFICIA LTIM E

In 19 88, Congre s s initiate d re q uire m e nts for union re pre s e ntative s to re port th e
us e of officialtim e . Th e Se nate Com m itte e on A ppropriations Re port5 th at
accom panie d SSA ’   s FY 19 88 appropriation re q ue s t m andate d th at SSA ’      s 19 89
and future budge t jus tifications incl   ude inform ation on SSA ’     s e xpe nditure s for
union activitie s . Since FY 19 89 , SSA h as m e t th is re q uire m e nt by providing
re ports to th e A ppropriations Com m itte e s th at contain th e num be r of h ours s pe nt
on officialtim e and th e ir cos t.

In D e ce m be r 19 9 7, th e H ous e and Se nate Com m itte e s on A ppropriations dire cte d
th e O ffice of Pe rs onne lM anage m e nt (O PM ) to com pil   e inform ation from various
age ncie s (incl uding SSA )on th e us e of officialtim e and oth e r s e rvice s by Fe de ral
e m ploye e unions and to re port th is inform ation to th e Com m itte e s . O PM w il    l
pre pare a re port th at contains th is inform ation cove ring th e firs t 6 m onth s of
CY 19 9 8. Th e inform ation is to incl    ude , am ong oth e r ite m s , th e totalh ours of
officialtim e , th e ir cos t, and inform ation on th e be ne fits and dis advantage s of us ing
officialtim e .

Bas e d on our re vie w , w e ide ntifie d s e ve ralw e ak ne s s e s in SSA ’ s proce s s ing and
re porting of officialtim e . W e found th at control        s are ins ufficie nt to provide
re as onable as s urance th at th e data SSA s uppl      ie s to th e Congre s s are re l  iable.

Proce s s ing O fficialTim e Re cords and Re ports

Th e proce s s e s for re porting officialtim e vary by com pone nt. Th e re are th re e
officialtim e form s and re porting proce s s e s . Copie s of th e form s are containe d in
A ppe ndix A and fl   ow ch arts d e s cribing th e re porting proce s s e s are containe d in
A ppe ndix B.

Union re pre s e ntative s in SSA ’ s fie ld office s and te l  e s e rvice ce nte rs h ave th e ir
officialtim e form s e nte re d into an autom ate d s y s te m , cal     le d th e Y Y Re porting
Sys te m , th at can produce s um m ary total      s . O th e r com pone nts us e a com pl     e te ly
m anualpape r-bas e d proce s s to re port and s um m arize officialtim e h ours . Th e
h ours re porte d are pe riodical  l
                                   y s e nt to O LM ER at H e adq uarte rs . O LM ER th e n
pre pare s an age ncyw ide re port of officialtim e h ours and provide s th is inform ation
to O B. A t th e e nd of th e FY, O B pre pare s SSA ’      s re port to th e A ppropriations
Com m itte e s th at include s inform ation on actualh ours us e d and th e cos ts
as s ociate d w ith officialtim e . Th e cos ts are de te rm ine d by us ing th e ave rage
e m ploye e s alary, e m pl oye e be ne fits , ove rh e ad rate s (l e ave ), arbitration, trave l ,
office s pace , and te l e ph one e xpe ns e s . SSA re porte d th at 481,9 45 h ours of
officialtim e w e re us e d in FY 19 9 6, w ith an e s tim ate d cos t of $14.7 m il       l
                                                                                           ion.

5
    Se nate Re port 100-189 .


                                                  15

M anage m e nt Control
                     s

O M B Circul ar A -123 re q uire s th at trans actions b e prom ptl y re corde d and
accounte d for to pre pare tim e l  y accounts and re l   iable financialand oth e r re ports .
In addition, th e docum e ntation for trans actions m us t be cl     e ar and re adil y avail  abl   e
for e xam ination. Th e re s h oul d be proce dure s in pl  ace to ve rify th e com pl   e te ne s s
and accuracy of th e re cords s um m arize d and re porte d. For e xam pl       e , in th e cas e
of officialtim e , th e re s h oul
                                 d be control s for th e follow ing:

   • Com pl
          e te ne s s - to e ns ure th at al
                                           lofficialtim e re cords are re porte d.

   • A ccuracy - to e ns ure th at officialtim e re cords are s um m arize d accurate l
                                                                                      y.

   • Re cording and D ocum e ntation - to e ns ure th at trans actions are cl e arl
                                                                                  y
     docum e nte d and th e docum e ntation is re adily availabl e for e xam ination.

W e re vie w e d al
                  lof th e avail
                               abl e re cords of officialtim e for H e adq uarte rs and O H A ,
Fall
   s Ch urch , as w e llas a s am pl e of re cords from SSA office s in th e A tl   anta,
D al
   las , and Ne w York re gions . W e ide ntifie d th e foll
                                                           ow ing w e ak ne s s e s w ith SSA ’
                                                                                              s
proce s s ing and re porting of officialtim e .

   • Th e re are ins ufficie nt controls to e ns ure th at al
                                                            lofficialtim e re cords are
     include d in SSA ’  s re porte d officialtim e .

   • Th e re are ins ufficie nt controls to ide ntify w h e n officialtim e re cords h ave
     be e n incorre ctly s um m arize d and re porte d.

   • SSA doe s not al   w ay s re tain individuals ource docum e nts (officialtim e
     re cords ) for re porte d officialtim e .

   • SSA doe s not h ave cons is te nt pol icie s and proce dure s for re porting official
     tim e for union office rs , and Partne rs h ip activitie s .

Com pl
     e te ne s s , Accuracy, and Re te ntion of O fficialTim e Re cords

SSA Ne e ds to Ens ure th at A l
                               lO fficialTim e Re cords A re Re porte d to Congre s s

SSA h as ins ufficie nt control   s in pl ace to e ns ure th at al  lofficialtim e re cords are
include d in th e ir s um m ary re ports . W h e n e ith e r pape r-bas e d re cords or autom ate d
re cords are forw arde d to O LM ER for th e age ncyw ide re port on officialtim e , th e re
is no confirm ation th at al   lre cords h ave be e n re ce ive d. Cons e q ue ntl  y, th e
s upe rvis ors w h o s ubm it re cords h ave no as s urance th at th e h ours h ave be e n
accounte d for and incl     ude d in th e age ncyw ide re port. M ore im portantl      y, if


                                                  16

s upe rvis ors do not s ubm it re cords , e ve n w h e n no officialtim e w as us e d for th e

re porting pe riod, O LM ER h as no w ay of k now ing w h e th e r th e y h ave re ce ive d al lof

th e re cords of officialtim e for e ach union re pre s e ntative . W e found th at w h e n a

union re pre s e ntative doe s not us e any officialtim e for a re porting pe riod,

s upe rvis ory practice s diffe r. Som e s upe rvis ors s ubm it re ports s h ow ing ze ro h ours ,

w h il
     e oth e rs s im pl
                      y do not fil
e a re port.

To e ns ure th at al  lofficialtim e re cords are incl   ude d in SSA ’   s re port to Congre s s ,
th e re s h ould be a com paris on (m anualand autom ate d)of th e l          is tings of auth orize d
union re pre s e ntative s to th e ir individualre cords of officialtim e s ubm itte d by
s upe rvis ors . Th is com paris on w oul    d e nabl
                                                    e SSA to ide ntify th os e union
re pre s e ntative s w h os e s upe rvis ors did not re port th e ir officialtim e as re q uire d.

SSA Sh oul
         d Re concil
                   e O fficialTim e Re cords and Re ports

A tim e l
        y re concil  iation of individualre cords of officialtim e to s um m ary re ports
w oul d e nable SSA to m aintain th e accuracy of th e s um m ary re ports . O nl      y by
re conciling th e individualre cords to th e s um m ary re ports , can SSA ide ntify
ins tance s w h e n officialtim e h ours w e re s um m arize d incorre ctly. H ow e ve r, SSA
h as not im pl e m e nte d s uch a re concil
                                           iation s y s te m . In addition, com pone nt and/or
re gionals um m ary re ports are not re concil    e d w ith th e age ncyw ide re port th at is
provide d to th e Congre s s .

For e xam pl  e , our re vie w at H e adq uarte rs s h ow e d th at s upe rvis ors s e nd th e official
tim e re cords to th e ir com pone nt l  abor re lations s taff w h ich , in turn, s e nds a
s um m ary of th e officialtim e re cords e ve ry 3 m onth s to O LM ER. Th e s tatis tics
us e d in th e annualre port to congre s s ionalCom m itte e s are de rive d from th e
s um m ary th at th e com pone nts s ubm it. Th is is done w ith out any re concil          iation to
th e s ource docum e nts .

A t H e adq uarte rs , w e atte m pte d to re concil e th e individualre cords of officialtim e
for al l73 union re pre s e ntative s to th e s um m ary re ports for H e adq uarte rs . In our
atte m pt to re concil  e th e re cords , w e ide ntifie d a dis cre pancy in w h ich 7,535 h ours
w e re ove rs tate d. Be caus e of th e l  arge dis cre pancy, w e provide d O LM ER w ith th e
re s ul
      ts of our re cords re vie w . W e h ad ide ntifie d m ath e rrors , incorre ct pos tings of
tim e on th e re cords , and m is s ing docum e ntation.

O LM ER s taff s pe nt approxim ate l    y 5 w e e k s re vie w ing th e individualre cords . Th e y
h ad to re q ue s t m is s ing re cords from s upe rvis ors and atte m pte d to re s ol      ve th e
e rrors and dis cre pancie s w e h ad ide ntifie d. A s a re s ul    t of th e ir e fforts , th e y
obtaine d an additional102 officialtim e re cords and corre cte d inform ation th at h ad
be e n pre vious l y re porte d. O LM ER w as abl     e to re concil  e 6,881 of th e
7,535 ove rs tate d h ours , w ith 654 h ours s til     lunre concil   e d.



                                                  17

A t O H A , w e atte m pte d to re concil
                                        e Fall
                                             s Ch urch and re gionals um m ary re ports of
officialtim e to th e am ounts SSA inc l  ude d in th e age ncyw ide re port to th e
Congre s s for FY 19 9 6. O ur com paris on of th e Fal  ls Ch urch and re gionals um m ary
re ports to th e age ncyw ide re port to th e Congre s s ide ntifie d th e fol
                                                                             low ing
diffe re nce s :

                                                 Falls Ch urch and
   Union               Age ncy Re port           Re gionalRe ports             D iffe re nce s

   A FGE                   33,402                      29 ,229                     4,173
   NTEU                    13,776                      10,9 68                     2,808
   NFFE                       137                          137                          0
   TO TA L                 47,315                      40,334                      6,9 81

W e provide d th is inform ation to O LM ER, but it w as unabl       e to de te rm ine th e
re as ons for th e diffe re nce s in re porte d officialtim e h ours .

Som e O fficialTim e Re cords W e re Counte d Tw ice in Cal
                                                          cul
                                                            ating O fficialTim e

SSA h as ins ufficie nt control   s to pre ve nt dupl icate re porting of officialtim e re cords .
W h e n re cords are forw arde d to O LM ER for th e age ncyw ide re port on officialtim e ,
th e y are not ch e ck e d to e ns ure th e y h ave not alre ady be e n accounte d for in th e
total s.

A t H e adq uarte rs , union re pre s e ntative s w h o are “office rs ”do not s ubm it official
tim e re cords . Th e y are s im pl y re q uire d to s ign-in and -out w ith th e s upe rvis or of
th e ir as s igne d office . In addition, th e A FGE/SSA A gre e m e nt, Articl      e 30,
A ppe ndix A , provide s th at th e y re ce ive a re as onabl   e am ount of officialtim e for th e
pe rform ance of th e ir l   abor-m anage m e nt re s pons ibilitie s . As a re s ult of th e s e
conditions , O LM ER cons ide rs office rs to be ful      l
                                                          -tim e re pre s e ntative s and ch arge s
th e m w ith 2,080 h ours pe r ye ar.

A t H e adq uarte rs , w e re vie w e d al
                                         lof th e avail able officialtim e re cords for e ach
union re pre s e ntative and found th at O LM ER re porte d 29 ,120 h ours for
14 “  full
         -tim e ”union re pre s e ntative s (2,080 h ours x 14 re pre s e ntative s ). H ow e ve r,
3 of th e 14 union re pre s e ntative s w e re not office rs and h ad s ubm itte d officialtim e
re cords for 4,051 h ours . As a re s ul    t, th e h ours for th e s e union re pre s e ntative s
w e re include d in s um m ary re ports com pil    e d from th e officialtim e re cords and in
O LM ER’  s re port of 29 ,120 h ours . Th is caus e d th e officialtim e h ours to be
ove rs tate d by 4,051 h ours . Th is occurre d be caus e O LM ER did not com pare th e
officialtim e re cords s ubm itte d by s upe rvis ors to a l   is t of pe rs ons al
                                                                                  re ady cre dite d
w ith 2,080 h ours .

Som e O fficialTim e Re cords W e re Incorre ctl
                                               y Sum m arize d


                                                 18

To e ns ure th at officialtim e re cords are accurate l    y s um m arize d, th e re s h ould be a
com paris on of th e h ours on th e officialtim e re cords to th e h ours e nte re d and
s um m arize d. Pe rs onne lin SSA ’   s fie l
                                             d office s us e th e Y Y Re porting Sys te m to
s um m arize and e nte r officialtim e re cords . H ow e ve r, th e accuracy of th e
s um m arize d officialtim e is d e pe nde nt on th e e m pl oye e s ch e ck ing and com paring
th e ir input to th e s ource re cords . Th e re are no s y s te m atic e dits or ch e ck s to
e ns ure th e inform ation w as s um m arize d accurate l    y.

D uring our re vie w of SSA ’      s re gionaloffice s w e found re porting e rrors for th e data
e nte re d in th e Y Y Re porting Sys te m . Th e re w e re re porting e rrors for th e total
officialtim e us e d as w e l   las th e totalofficialtim e h ours th at are l    im ite d or cappe d.
Th e re are s e ve ralcate gorie s of officialtim e th at are adde d to de te rm ine th e total     s
for officialtim e us e d. Pe rs onne lin SSA ’       s fie l
                                                           d office s are re s pons ible for total
                                                                                                 ing
th e officialtim e h ours from officialtim e re cords and e nte ring total         s in th e Y Y
Sys te m . W e found th at, in m any cas e s , officialh ours th at h ad be e n us e d w e re
e ith e r not e nte re d in th e Y Y s y s te m or th e am ounts e nte re d w e re incorre ct. W e
found e rrors in th e s um m ary re ports as fol       low s :

    • A tl
         anta          - 256 e rrors , re s ulting in an unde rs tate m e nt of 4,177 h ours .
    • D al
         las           - 63 e rrors , re s ul
                                            ting in an unde rs tate m e nt of 9 06 h ours .
    • Ne w York        - 67 e rrors , re s ul
                                            ting in an unde rs tate m e nt of 6,777 h ours .

W e de te rm ine d th at th e s e e rrors occurre d be caus e th e Y Y Re porting Sys te m doe s
not h ave e dit ch e ck s to e ns ure th e inform ation e nte re d is accurate .

Som e O fficialTim e Form s W e re Not Re taine d

Th e officialtim e s ource docum e nts ne e d to be re taine d to de te rm ine w h e th e r
re cords of officialtim e are corre ctl y re porte d and s um m arize d. Th e s ource
docum e nts pe rm it ve rification of th e totalam ounts re corde d and re porte d. Th e
SSA tim e k e e ping m anualre q uire s th at SSA m aintain ade q uate s upporting
docum e ntation of tim e and atte ndance on fil     e for 36 m onth s afte r th e cl
                                                                                   os e of th e
appl icable FY.

W e found incons is te nt practice s for re te ntion of originalofficialtim e re cords . For
e xam pl e , during our re vie w of SSA ’  s re gionaloffice s , w e found th at SSA
s om e tim e s dis carde d FY 19 9 6 officialtim e re cords b e fore th e 36-m onth re te ntion
pe riod e xpire d. Be caus e th e re cords w e re not avail    able for our re vie w , w e coul d
not s ubs tantiate th e e xis te nce or accuracy of 3,9 10 h ours incl       ude d in th e FY 19 9 6
re port to Congre s s . Th e re gionalSSA official     s s tate d th at th e inform ation w as
dis carde d be caus e th e re are no s pe cific pol icie s or ins tructions on h ow l   ong official
tim e re cords s h oul d be m aintaine d.



                                                  19

SSA Ne e ds to Ens ure th at O fficialTim e Is Cons is te ntl
                                                            y Re porte d for Union O ffice rs

In SSA ’  s re port to Congre s s on FY 19 9 6 officialtim e , th e re are e s tim ate d
e xpe ns e s for th e s alarie s of union re pre s e ntative s . Th e e s tim ate d cos t of official
tim e is d e te rm ine d by O B. Th e s al ary cos t is d e te rm ine d by m ul  tiplying th e total
officialtim e h ours by an ave rage e m pl     oye e h ourl  y pay. Em pl    oye e be ne fits and an
ove rh e ad rate for vacation and l     e ave are al  s o include d to obtain th e totals al   ary
cos t for union activitie s .

W e found th at SSA doe s not cons is te ntl      y us e th e s am e crite ria to de te rm ine
officialtim e h ours for union office rs , and, as a re s ul     t, th e h ours re porte d and th e
s alary cos ts of officialtim e h as b e e n ove rs tate d for s om e union office rs . W e
found th at H e adq uarte rs union office rs ’officialtim e h ours are com pute d diffe re ntl       y
th an O H A and re gionaloffice s . At H e adq uarte rs , O LM ER re ports 2,080 h ours for
e ach office r w h e re as O H A and th e re gionaloffice s de duct l      e ave and h ol idays from
th e bas e 2,080 h ours . For e xam pl    e , th e incons is te ncy caus e d th e fol low ing
ove rs tate m e nt of s alary cos ts for e ach union office r for FY 19 9 6.

                               H e adq uarte rs         O H A and Re gions D iffe re nce

O fficialh ours                      2,080                       1,800

Sal
  ary Rate                       x $19 .27                   x $19 .27
Sal
  ary                             $40,081                     $34,686

Em pl
    oye e Be ne fit Rate          x 18.44%                     x 18.44%
Em pl
    oye e Be ne fits              $7,39 1                      $6,39 6

TotalEm ploye e
Salary and Be ne fits             $47,472                     $41,082

O ve rh e ad Rate (Le ave )       x 21.52%                    x 21.52%
O ve rh e ad Cos t                $10,216                     $8,841

TO TA LSALARY                     $57,688                     $49 ,9 23         $7,765


W e w e re abl e to ide ntify 14 union office rs at H e adq uarte rs th at h ad 2,080 official
tim e h ours re porte d. W e e s tim ate th e totalove rs tate m e nt of s al
                                                                            ary cos ts for th e m
to be $108,710 (7,765 x 14).

SSA Ne e ds to Ens ure th at Partne rs h ip A ctivitie s A re Cons is te ntl
                                                                           y Re porte d

Partne rs h ip activitie s are incre as ingl
                                           y be com ing th e s tandard for labor-m anage m e nt
inte raction. H ow e ve r, th e re w as a lack of cl e ar policy as to h ow m uch , if any,


                                                  20

tim e s pe nt on Partne rs h ip activitie s by union re pre s e ntative s cons titute d official
tim e and s h oul   d h ave be e n re porte d accordingl  y. D uring our re vie w of FY 19 9 6
officialtim e re cords , w e found th at th e re w as incons is te nt re porting of Partne rs h ip
tim e . Th e A FGE/SSA A gre e m e nt doe s not addre s s w h ich tim e s pe nt on
Partne rs h ip activitie s is officialtim e . Th e Partne rs h ip ch apte r of th e A FGE/SSA
A gre e m e nt, s e ction 3, onl  y indicate s th at any Partne rs h ip h ours cons ide re d official
tim e s h allnot be l   im ite d or cappe d. Th e incons is te nt re porting of th e s e h ours
de tracte d from th e re l   iability of SSA ’s re porte d officialtim e .

O ur inte rvie w s at H e adq uarte rs provide d th e bas is to our concl      us ion th at th e re is
incons is te nt re porting of Partne rs h ip tim e . Itre ve al   e d th at 9 of th e 14 union
re pre s e ntative s e ith e r did not re port Partne rs h ip tim e as officialtim e or w e re not
s ure w h e th e r s uch activitie s s h oul d be incl ude d. W h e n re porte d, th e union
re pre s e ntative s us ual  ly us e d an e xis ting activity code on th e officialtim e re cord
s ince th e re is no code for Partne rs h ip activitie s .

SSA h as atte m pte d to cl   arify w h ich activitie s s h oul
                                                              d be re porte d as Partne rs h ip
tim e , officialtim e , or A ge ncy duty tim e w ith ins tructions is s ue d in
D e ce m be r 19 9 7.

NEW LEGISLA TIO N A FFECTING O FFICIA LTIM E

Tw o pie ce s of l  e gis l
                          ation re l
                                   e vant to officialtim e h ave e m e rge d: (1)SSA w il  lbe
re q uire d to pre pare a re port w h ich addre s s e s th e be ne fits and dis advantage s of
officialtim e ;and (2) th e SocialSe curity trus t funds are to be re im burs e d by
ge ne ralre ve nue s from th e D e partm e nt of Tre as ury for th e cos ts of officialtim e .

O fficialTim e Sh oul
                    d Be Eval
                            uate d

O PM h as b e e n dire cte d by Congre s s to gath e r officialtim e data from various
age ncie s , incl uding SSA , re garding th e am ount and cos ts of officialtim e us age .
Th e data is to incl    ude a de s cription of both th e be ne fits and dis advantage s of
officialtim e . O PM ’    s re port is to cove r th e firs t 6 m onth s of CY 19 9 8. A l  th ough
SSA is al   re ady providing Congre s s w ith m os t of th is data, inform ation on th e
be ne fits and dis advantage s of us ing officialtim e w il      lbe re porte d for th e firs t tim e .
Th is re q uire m e nt s h ould give SSA th e ince ntive to e val   uate th e outcom e s of
officialtim e us age and de te rm ine h ow th e y h ave affe cte d SSA ’      s s e rvice to th e
publ ic. Be fore th is ne w re q uire m e nt, SSA h ad not conducte d any e val         uations .

In its re port on union activitie s at SSA , GA O s tate d,

    “SSA h as a s pe cialfiduciary re s pons ibil  ity to e ffe ctive l
                                                                      y m anage and
    m aintain th e inte grity of th e SocialSe curity trus t funds from w h ich m os t
    of th e s e e xpe ns e s are paid. In a tim e of s h rink ing budge t and pe rs onne l

                                                   21

    re s ource s , it is e s pe cial
                                   ly im portant for SSA to e val  uate h ow re s ource s
    are be ing s pe nt and to h ave re l       e m onitoring s y s te m s th at facil
                                            iabl                                    itate th is
    e val uation.”

W e be l ie ve SSA ne e ds to im prove its m anage m e nt ove rs igh t of officialtim e to
e ns ure it is us e d appropriate l   y and accurate ly re porte d;h ow e ve r, th is w il
                                                                                         lnot
m e as ure th e val   ue of officialtim e . Eve n w ith re l
                                                           iabl

                                                               e , accurate inform ation on
us age and cos ts , th e re is no s y s te m in place to q uantify and e val   uate w h at SSA

h as accom pl   is h e d for th os e cos ts .

O fficialTim e No Longe r an Expe ns e of SSA ’
                                              s Trus t Funds

Publ  ic Law 105-78, e nacte d in 19 9 7, ch ange d th e w ay th e ul          tim ate cos ts of
officialtim e w il lbe borne . Prior to th is l  e gis lation, officialtim e w as funde d in th e
s am e m anne r as SSA’    s oth e r adm inis trative e xpe ns e s , th at is , from a com bination
of funds d e rive d from th e trus t funds and ge ne ralre ve nue s . Th e al         l
                                                                                      ocation
be tw e e n th e trus t funds and ge ne ralre ve nue s h as b e e n in th e s am e proportion as
al lSSA adm inis trative e xpe ns e s . Publ   ic Law 105-78 ch ange d th is arrange m e nt
s uch th at th e SocialSe curity trus t funds w il     lbe re im burs e d for th e cos ts
as s ociate d w ith th e us e of officialtim e from th e U.S. D e partm e nt of Tre as ury,
s olel y out of ge ne ralre ve nue s . Th is ne ith e r incre as e s nor de cre as e s th e cos ts
as s ociate d w ith union activitie s and officialtim e . Th e re is no s pe cific
appropriation m ade for th e s e cos ts and th e y re m ain part of SSA ’          s ove rall
adm inis trative budge t.




                                                 22

  CO NCLUSIO NS AND RECO M M END A TIO NS


CO NCLUSIO NS

W e concl   ude th at m anage m e nt ove rs igh t w e ak ne s s e s and proble m s w ith SSA ’
                                                                                             s
proce s s ing and re porting of officialtim e h ave pre ve nte d SSA from producing
re l
   iable re ports re garding th e us e of officialtim e by union re pre s e ntative s .
Spe cifical l                 ie ve th e re w as re as onabl
             y, w e do not be l                                e as s urance th at:

   • onl
       y de s ignate d union re pre s e ntative s us e d officialtim e ;

   • re q ue s ts for officialtim e w e re for auth orize d purpos e s ;

   • l
     im its on th e us e of officialtim e w e re obs e rve d;

   • al
      le gations or s us picions of m is us e of officialtim e w e re e ffe ctive l
                                                                                  y re s ol
                                                                                          ve d;

   • re porte d officialtim e w as com pl
                                        e te ;

   • officialtim e re cords w e re s um m arize d and re porte d accurate l
                                                                          y;

   • s upporting docum e ntation of officialtim e w as re taine d;

   • officialtim e for union office rs w as cons is te ntl
                                                         y re porte d;and

   • officialtim e for Partne rs h ip activitie s w as cons is te ntl
                                                                    y re porte d.

Be caus e of th e s e w e ak ne s s e s , w e could not de te rm ine w h e th e r th e actualtim e
and cos t as s ociate d w ith SSA ’      s FY 19 9 6 officialtim e w e re accurate l   y re porte d to
th e Congre s s .

RECO M M END A TIO NS

W e re com m e nd th at SSA tak e th e fol
                                         low ing corre ctive actions .

1. M aintain accurate , up-to-date l is tings of union re pre s e ntative s (as re q uire d by
   th e col
          le ctive bargaining agre e m e nts ) to e ns ure th at:

   a) Supe rvis ors onl  y approve re q ue s ts for th e us e of officialtim e for auth orize d
      union re pre s e ntative s .


                                                  23

   b) Th e num be r of auth orize d union re pre s e ntative s doe s not e xce e d th e
      lim itations s pe cifie d in th e col
                                          le ctive bargaining agre e m e nts at any give n
      tim e .

2. Im prove its m anage m e nt ove rs igh t to h e l
                                                   p de te rm ine w h e th e r officialtim e is
   us e d for appropriate activitie s and appropriate am ounts of tim e . To accom pl           is h
   th is obje ctive , SSA s h oul
                                d:

   a) Ins truct s upe rvis ors to h ave officialtim e form s fil   l
                                                                   e d out as pre cis e ly as
      pos s ible us ing e xis ting code s and s ub-code s w h e re appl   icabl  e . Ifm ore
      dilige nt com pl   e tion of th e officialtim e form s s til
                                                                 ldoe s not e nabl   e s upe rvis ors
      to m ak e an inform e d de cis ion as to th e appropriate ne s s of th e activity or th e
      tim e re q ue s te d or us e d for th at activity, SSA s h oul d purs ue re vis ions of th e
      form s tow ard th at e nd during ne gotiations on future col        le ctive bargaining
      agre e m e nts .

   b) Ins truct s upe rvis ors of NTEU union re pre s e ntative s to us e th e pre s cribe d
      officialtim e form s in accordance w ith th e te rm s of th e col   l
                                                                          e ctive bargaining
      agre e m e nt.

   c) Re m ind al
                ls upe rvis ors th at officialtim e m us t be approve d in advance of its
      us age .

   d) Pe riodical
                ly ve rify a s am pl
                                   e of officialtim e us e d to e ns ure th at officialtim e
      re cords are accurate .

3. M onitor th e coding or cate gorizing of th e type of union re pre s e ntative activity
   s o th at activitie s th at h ave l  im its are not im prope rly re porte d as an unl  im ite d
   activity. To accom pl      is h th is obje ctive , SSA s h ould re q uire th at inform ation on
   th e officialtim e re cord s pe cifying th e type of activity be com pl       e te d, and
   pe riodical l
               y te s t s uch re cords for accuracy.

4. Im prove proce dure s to e ns ure th at al   le gations or s us picions of abus e are
   re s olve d in a tim e ly m anne r. Proce dure s s h oul
 d addre s s tim e fram e s for union
   coope ration in providing re q ue s te d docum e nts , a s pe cific docum e nt re te ntion

   s ch e dul
 e for union copie s of officialtim e form s , and a proce s s to addre s s
   s ituations w h e re tim e fram e s are not m e t or th e union doe s not coope rate .
   Al  s o, s upe rvis ors s h oul
                                 d be advis e d of th e dis pos ition of th e ir re fe rral
                                                                                          s
   w h e ne ve r appropriate .

5. Im prove controls to e ns ure th at officialtim e data are com pl   e te . Th e re s h ould
   be confirm ation of re ce ipt w h e n officialtim e re ports are s ubm itte d. A l s o, a



                                                 24

   foll
      ow -up by appropriate l   abor re l
                                        ations s taff s h oul
                                                            d be re q uire d for any pe riod
   in w h ich a re port w as not fil
                                   e d.

6. Im prove control s to e ns ure th at officialtim e re cords are accurate l
                                                                            y s um m arize d
   and re porte d. SSA s h oul d:

   a) Re concil e individualofficialtim e re cords to s um m ary re ports and re concil
                                                                                      e
      com pone nt and/or re gionals um m ary re ports to th e age ncyw ide re port
      be fore it is provide d to O PM and th e Congre s s .

   b) Com pare officialtim e re cords th at h ave be e n s ubm itte d by s upe rvis ors to
      any re cords th at m ay h ave be e n pre vious l
                                                     y re porte d or calcul ate d into th e
      total
          s to ide ntify duplicate re porting of officialtim e .

   c) Com pare th e officialtim e re cords to th e am ounts s um m arize d and e nte re d in
      th e autom ate d s y s te m (YY s y s te m ) for proce s s ing officialtim e .

7. Es tabl
         is h a uniform re te ntion pol icy for officialtim e re cords . Th e s e s ource
   docum e nts ne e d to be m aintaine d to ve rify th e data on officialtim e re cords
   and m ay be ne ce s s ary to re s ol
                                      ve any al le gations or s us picion of m is us e .

8. D e ve l
          op policie s and proce dure s to e ns ure officialtim e is cons is te ntl  y re porte d
   for union office rs . Th is w illcorre ct th e incons is te nt re porting w h ich h as
   caus e d an ove rs tate m e nt of th e s al
                                             ary cos ts for s om e union office rs .

9 . Re vis e its pol  icie s and proce dure s for re cording Partne rs h ip tim e s o th at union
    re pre s e ntative s , as w e l
                                  las SSA supervis ors , k now w h ich activitie s s h oul  d be
    re porte d as Partne rs h ip or officialtim e . O fficialtim e re cords s h oul d be re vis e d
    to re fle ct th e s e ch ange s .

10. To com pl   y w ith O PM ’ s re q ue s t for CY 19 9 8 data on officialtim e , SSA s h oul
                                                                                             d
           is h a m e ch anis m to e val
    e s tabl                              uate th e be ne fits and dis advantage s of official
    tim e and its im pact on SSA ’     s s e rvice to th e publ ic.




                                                25

AGENCY CO M M ENTS AND OIG RESPO NSE

AGENCY CO M M ENTS

SSA provide d com m e nts conce rning: (1) th e re port in ge ne ral
                                                                   ;(2)e ach s pe cific
re com m e ndation;and (3) te ch nicalpoints and/or w ording (s e e A ppe ndix C for th e
ful lte xt of th e A ge ncy’
                           s com m e nts ).

1. O ve ral lre port -- O n a ge ne rall e ve l, SSA be l   ie ve d th e re port s h oul
                                                                                       d
   ack now l   e dge th e actions it h as al  re ady tak e n to im prove th e accuracy of its
   officialtim e re porting proce s s , as w e l   las ack now l    e dge th e im pact of
   adm inis trative cas e l  aw de cis ions on th e param e te rs in w h ich th e A ge ncy m us t
   ope rate . To s upport th is , SSA l    is te d s pe cific actions it h ad tak e n to im prove
   th e tim e re porting proce s s . Al  s o, SSA s tate d th at m any of our
   re com m e ndations appe ar to as k th e A ge ncy to go be yond th e cons traints
   e s tablis h e d by adm inis trative cas e l  aw .

2. Spe cific re com m e ndations -- SSA ge ne ral       ly agre e d w ith al  lof th e s pe cific
   re com m e ndations e xce pt for one w h ich re com m e nde d th at SSA re vis e its
   pol icie s and proce dure s to cl   arify w h e th e r activitie s s h ould be re porte d as
   Partne rs h ip or officialtim e . SSA s tate d th at th e Com m is s ione r al     re ady
   re vie w e d th is is s ue and de cide d w h ich activitie s s h oul   d be cons ide re d
   Partne rs h ip activitie s , and th at tim e s pe nt on Partne rs h ip activitie s s h oul   d not
   be re porte d as officialtim e .

3. Te ch nicalpoints and/or w ording- SSA provide d s e ve rals ugge s te d te ch nicalor
   w ording ch ange s to various points in th e re port.

O IG RESPO NSE

1. O ve ral lge ne ralcom m e nts -- W e re vis e d th e re port to furth e r ack now l
                                                                                      e dge th at
   SSA h as tak e n ce rtain actions to im prove th e accuracy of th e tim e re porting
   proce s s , s uch as providing guidance to s upe rvis ors and m anage rs . In m ak ing
   th e s e re com m e ndations , our inte nt is to e ns ure com pl iance w ith th e official
   tim e re porting re q uire m e nts of th e curre nt colle ctive bargaining agre e m e nts . If
   SSA is unabl     e to im ple m e nt our re com m e ndations w ith in th e confine s of th e
   curre nt agre e m e nts and th e param e te rs s e t by adm inis trative cas e l aw , it
   s h oul d addre s s th e m during ne gotiations for future col    l
                                                                     e ctive bargaining
   agre e m e nts . Ifs uch ne gotiations prove uns ucce s s ful   , SSA m ay w is h to s e e k a
   le gis lative re s ol
                       ution.

2. Spe cific re com m e ndations -- W e dis agre e w ith SSA ’ s im pl
                                                                     ication th at th e re is
   no furth e r ne e d to cl
                           arify/and or re vis e its pol
                                                       ice s and proce dure s re garding


                                                  26

   w h ich activitie s are Partne rs h ip activitie s and w h ich activitie s s h oul    d be
   re porte d as officialtim e . W e ack now l    e dge th at SSA h as re ce ntl     y is s ue d
   guidance as to w h ich activitie s s h oul    d be cons ide re d Partne rs h ip activitie s , and
   th at Partne rs h ip activitie s s h ould not be cons ide re d officialtim e . W e do not
   be lie ve th e guidance obviate s th e ne e d for furth e r cl     arification. For e xam pl      e,
   ne w ins tructions s tate th at for w ork groups e s tabl      is h e d by th e A ge ncy, th e re
   are unre s ol  ve d is s ue s conce rning th e clas s ification of tim e for union
   re pre s e ntative s s e rving on a w ork group in a re pre s e ntationalcapacity. In fact,
   th e guidance s tate s th at “th is is s ue w illbe s ubs e q ue ntl   y addre s s e d.” A l  s o, th e
   ne w guidance ne e ds to be dis s e m inate d to al       lunion re pre s e ntative s as w e l   las
   s upe rvis ors and m anage rs and incorporate d into officialtim e crite ria
   ins tructions and form s .

Te ch nicalpoints and/or w ording - our re s pons e s to e ach point are l
                                                                         is te d be l
                                                                                    ow .

  A ) In re s pons e to our s tate m e nt th at Partne rs h ip activitie s m ay or m ay not be
      cons ide re d officialtim e , SSA re q ue s te d th at th e re port s tate th is is s ue w as
      cl arifie d, and th at th e Com m is s ione r de cide d th at Partne rs h ip activitie s are
      not officialtim e . W e re vis e d th e re port to cl  arify th at Partne rs h ip activitie s
      m ay or m ay not h ave be e n cons ide re d officialtim e for th e pe riod of our
      re vie w but m ore re ce nt guidance h as atte m pte d to cl     arify w h ich activitie s
      s h oul d be cons ide re d officialtim e , Partne rs h ip, or A ge ncy duty tim e .

  B) SSA re q ue s te d th at w e s tate w h y w e did not re vie w O UTTS. W e re vis e d
     our re port to indicate th at w e did not re vie w O UTTS be caus e it w as s til lin a
     training e nvironm e nt during our fie l    d w ork and SSA h ad not ful
                                                                            ly
     im ple m e nte d it untilafte r our re vie w e nde d.

  C) SSA indicate d th at th e re as on its l    is t of Local19 23 union re pre s e ntative s
     containe d e m pl   oye e s from oth e r age ncie s is b e caus e Local19 23 doe s in fact
     re pre s e nt e m ploye e s in oth e r Fe de ralage ncie s . SSA s im ply provide d w h at
     O IG re q ue s te d. W e re vis e d th e re port to re fl
                                                             e ct th is com m e nt.

  D ) SSA re q ue s te d w e re vis e th e re port to indicate th at th e diffe re nce s found in
      O H A officialtim e data w as partial     l
                                                y due to th e fail ure of O IG to incl   ude th e
      data for tw o re gions . W e dis agre e . O IG re q ue s te d SSA to re s ol   ve an
      unre concil  e d diffe re nce of 6,9 81 h ours bas e d on al   lof th e inform ation SSA
      provide d to O IG for th e O H A re porte d officialtim e . To date , SSA h as
      provide d no inform ation to e xpl     ain th e re as ons for th e unre concil ed
      diffe re nce s .

  E) SSA re q ue s te d w e re vis e th e re port to indicate th at, in th e pas t, s om e
     Partne rs h ip activitie s w e re cons ide re d officialtim e by som e SSA
     com pone nts , but th is is s ue h ad be e n cl  arifie d. W e did not accom m odate th is


                                                   27

re q ue s t be caus e th e cl
                            arification w as not appl
                                                    icabl
                                                        e to th e FY 19 9 6 official
tim e re cords unde r re vie w .




                                      28

A PPEND ICES

                           A PPEND IX A


SSA O FFICIA LTIM E FO RM S

                                  A PPEND IX B


O FFICIA LTIM E REPO RTING FLO W CH ARTS

                      A PPEND IX C


AGENCY CO M M ENTS

                                                                                A PPEND IX D


            M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

E. Scott Patte rs on, D ire ctor, Eval
                                     uations and Te ch nicalSe rvice s
CarlK . M ark ow itz, Audit M anage r, H e adq uarte rs
Brian Pattis on, D e puty D ire ctor, Re gion VI
Jam e s J. K l
             e in, Auditor-in-ch arge , H e adq uarte rs
Le l
   a Cartw righ t, Auditor-in-ch arge , Re gions
Ge ral                               yst
     d L. H ock s te in, Program A nal
Sandra W e s tfal
                l              yst
                 , Program A nal
Ph ilH ors l
           e y, Auditor
Ste rl
     in M cGrude r, Auditor
Robe rt Bl
         ak e , Auditor
Ste ph e n Lie bm an, Auditor
A rth ur Tre gl
              ia, Auditor
El
 le n Jus tice , Auditor
Sh abl
     e Be ne fie l
                 d, Auditor



For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Publ                   is t at (410)9 66-9 135. Re fe r to Com m on
                ic A ffairs Spe cial
Ide ntification Num be r A -13-9 7-72013,
                             A PPEND IX E


SSA O RGAN IZ A TIO NA LCH ART

